No. 19-1269

In The
TCL COMMUNICATION TECHNOLOGY HOLDINGS LIMITED, ET AL.,

Petitioners,

v.
TELEFONAKTIEBOLAGET LM ERICSSON, ET AL.,

Respondents.
On Petition for Writ of
Certiorari to the United States
Court of Appeals for the Federal Circuit
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I, Thomas K. Hedemann, a
member of the bar of this Court, certify that the accompanying BRIEF OF AMICUS
CURIAE U-BLOX IN SUPPORT OF PETITIONERS contains 2,828 words, excluding
the parts of the document that are exempted by Supreme Court Rule 33.l(d).
Executed on June 4, 2020

Thomas K. Hedemann
Counsel of Record
AXINN, VELTROP &
HARKRIDER LLP
90 State House Square
Hartford, CT 06103
(860) 275-8145
thedemann@axinn.com

